U.S. Department of                                                            Office of Inspector General
Transportation                                                                Washington, D.C. 20590
Office of the Secretary
of Transportation



November 7, 2003

The Honorable Ernest J. Istook
Chairman
Subcommittee on Transportation,
 Treasury, and Independent Agencies
Appropriations Committee
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

In the report accompanying the Fiscal Year 2003 Department of Transportation
Appropriations Act (House Report No. 107-722), we were requested to examine
firms certified under DOT Disadvantaged Business Enterprise (DBE) programs in
New Orleans, LA, and report on instances in which Federal DBE regulations may
have been violated. The Committee’s request stemmed from concerns, initially
raised by then-Subcommittee Chairman Harold Rogers and Representative David
Vitter in 2001, regarding a series of articles in the New Orleans Times-Picayune
newspaper about alleged systemic problems in local DBE programs.

While the articles discussed all DBE programs in New Orleans, only three of these
programs receive DOT funding. The DOT-funded DBE programs in New Orleans
consist of programs administered by the New Orleans International Airport
(Airport), the Regional Transit Authority (Transit Authority), and the New Orleans
Levee District (Levee District)1.

The issues identified in the Times-Picayune articles included: general
mismanagement of the DBE programs; political patronage in the awarding of
contracts; participation in the programs by business owners who were not
economically disadvantaged, including the wife of a multi-millionaire celebrity
attorney; and inconsistency in DBE certification requirements between the various
agencies.

1
  The New Orleans Levee District operates the Lakefront Airport, which receives Airport Improvement
Program funding from DOT through the Federal Aviation Administration (FAA).

Report No. CC-2001-269
                                                                                                         2



Background on New Orleans DBE Programs

In addition to the three DOT-funded DBE programs in New Orleans, there are four
other DBE programs (non-DOT funded) administered by the City or local
governmental agencies. These include the New Orleans Housing Authority,
Orleans Parish School Board, Water and Sewage Board, and the City of New
Orleans DBE program. In total, there are more than 1,200 DBE businesses in
New Orleans that have been certified by one or more of the three DOT-funded
agencies and the four local agencies.

Process-wise, the local agencies require prospective DBE program applicants to
complete a certification application. The applicant is required to provide
information on type of business, equipment owned, licenses held, past work
history, financial data, and membership in a designated socially disadvantaged
group. Upon receipt and review of this information, the local agency issues a
certification and the DBE is added to the agency’s list of DBEs qualified for
participation in contracting creditable towards the agency’s established DBE
goals.

For DOT-funded programs, DOT authorizing statutes require that DBE firms must
be owned and controlled by “socially and economically disadvantaged”
individuals in order to qualify. The DOT statutes specify that women meet the
definition of “socially and economically disadvantaged,” but reference the Small
Business Act for identification of other qualifying groups for which social
disadvantage is to be rebuttably presumed2. The Small Business Act leaves to the
Department promulgation of regulations further defining the terms and conditions
for DBE eligibility.

DBE eligibility requirements have been further defined by DOT regulations at
Title 49 Code of Federal Regulations (CFR), Part 26, which applies to programs



2
  The Small Business Act defines socially disadvantaged as “…those who have been subjected to racial or
ethnic prejudice or cultural bias because of their identity as a member of a group without regard to their
individual qualities.” Economically disadvantaged is defined as “…those socially disadvantaged
individuals whose ability to compete in the free enterprise system has been impaired due to diminished
capital and credit opportunities as compared to others in the same business area who are not socially
disadvantaged.” Further, the Small Business Act requires contractors to presume that socially
disadvantaged individuals include U.S. citizens (or persons with permanent resident status) who are African
American, Hispanic American, Native American, Subcontinent Asian American, and Asian-Pacific
American.



Report No. CC-2001-269
                                                                                                         3

involving DOT-funded contracting (e.g., for highway, transit, and airport
construction), and 49 CFR Part 23, which covers airport concession3 DBEs.

A significant discrepancy exists between these two 49 CFR Parts, in that while
Part 26 prescribes a $750,000 personal net worth limit for the owner of a DBE4,
Part 23 imposes no personal net worth limit. Although the regulations provide that
presumption of economic disadvantage is rebuttable, the absence of a personal net
worth limit for airport concession DBEs makes it difficult, if not impossible, for
the presumption to be rebutted. As such, it is possible that irrespective of personal
wealth, an individual otherwise qualified could attain certification as a DBE for an
airport concession contract if they are a member of a designated group based on
social disadvantage. The DOT DBE program and regulations are described in
further detail in Appendix A.

Like airport concession DBEs, the non-DOT funded DBE programs in New
Orleans presently do not limit the personal net worth of DBE owners. Eligibility
for these local DBE programs is determined solely by an individual’s membership
in a group for which social disadvantage is presumed, as defined in the Small
Business Act.

Methodology

Our investigation included an examination of those DBE certifications and
contracts issued—under DOT’s DBE regulations—by the Airport, Transit
Authority, and Levee District between 1999 and 20025. The total monetary value
of all contracts we reviewed exceeded $100 million. We interviewed 134 DBE
owners, contractors, and program officials. Further, we reviewed a random
sample of 100 DBE certification files (20 percent) of the 500 DBEs certified by
the Airport, Transit Authority, and the Levee District. We also identified and
reviewed an additional 18 certification files based on the results of our field
interviews.

3
  Concessions are contracts awarded by airport authorities to vendors for retail operations including
newsstands, gift shops, food and beverage establishments, and duty-free shops. Concession contracts
nationwide require varying levels of DBE participation.
4
 The $750,000 personal net worth limit excludes equity in one’s personal residence and ownership in the
DBE.
5
  Our investigation did not address DBE certifications and contracts issued under other than DOT’s
regulations, or those which were outside the 1999-2002 scope of our review. For instance, we did not
examine issues raised in the Times-Picayune series about Sheriff Harry Lee of Jefferson Parish, who, as a
DBE owner in the 1980s into the early 1990s, voluntarily gave up his DBE certification after its legitimacy
was questioned.



Report No. CC-2001-269
                                                                                                        4


We conducted site visits and on-the-job interviews of current DBE contractors,
and we also conducted surveillance of job sites to ascertain if DBE contractors
were actually completing the work contracted for certain projects. Additionally,
we investigated specific allegations reported in the Times-Picayune series
involving the DOT-funded DBE programs, and have included the results of our
review of those specific allegations in Appendix B6.

Summary of Findings

Our investigation substantiated many of the alleged abuses in the DBE programs
reported in the Times-Picayune series, and we encountered many of the same
problems in the DBE programs in New Orleans as we have seen in other DBE
programs across the country7. In fact, it would be inaccurate to say that the
problems we found in New Orleans are unique to that locale.

In brief, our investigation disclosed instances of significant programmatic
deficiencies and violations in key areas within the DBE programs of the Airport,
Transit Authority, and Levee District. For instance, we found that the DBE
program managers at the Transit Authority and Levee District did not conduct site
visits (required under DOT’s DBE regulations) with 50 percent and 30 percent,
respectively, of their certified DBEs. Further, we found DBE firms that were
controlled by non-minorities, and, in some cases, we uncovered potential DBE
fraud—namely “fronts”8. We are continuing to investigate the instances of
suspected fraud identified in this report.


6
  Some of the Times-Picayune articles concerning DOT-funded DBEs included allegations that were not
pertinent to the DBE program itself and thus were not within the scope of our investigation (e.g.,
allegations about an individual’s failed business and financial insolvency). Where applicable, we have
noted this in Appendix A.
7
  As of November 1, 2003, we have 40 ongoing DBE investigations in 19 states involving contractors
allegedly engaged in defrauding DOT’s DBE program. From Fiscal Year 1999 to present, our DBE fraud
investigations have resulted in 40 indictments, 29 convictions, and $10.7 million in fines and other
monetary recoveries. In addition to criminal prosecutions nationwide, we have identified and reported to
the Department areas where the DOT DBE regulations need strengthening, especially those applicable to
airport concession DBEs.
8
  The term “front” refers to a DBE which does not perform work to fulfill DBE participation requirements
under prime contracts. Instead, a prime or subcontractor pays the DBE a relatively small amount for use of
their DBE status to falsely represent that the DBE is performing the specified work. The prime contractor,
or another non-DBE contractor, then actually performs the work and receives the bulk of the payments.
Typically, payments are funneled through the DBE’s bank account to make it appear that the DBE in fact
performed the required work. This type of crime defrauds the integrity of the DBE program and harms
legitimate DBEs who abide by the law.

Report No. CC-2001-269
                                                                                5

Additionally, over 60 percent of DBE owners we interviewed expressed their
belief that political patronage affected the awarding of DBE contracts in the
New Orleans DBE programs during the 1999-2002 period we examined. One
DBE owner even told us he received a contract after yielding to what he perceived
was pressure from local campaign officials to make monetary contributions to, and
work on, a local candidate’s campaign; the DBE owner said the campaign officials
had implied that the way to obtain DBE contracts was through supporting this
candidate.    These specific allegations remain under investigation.          Our
investigation also disclosed program mismanagement; inadequate oversight—at
both the local and DOT level; participation by individuals not meeting eligibility
requirements; and inconsistency in DBE certification procedures.

Despite these and other troubling findings, we have also noted that since the
Times-Picayune series and the initiation of our investigation, the local agencies
have taken steps to ensure that such programmatic deficiencies do not remain
pervasive. More specifically, we found the following:

• DBE Owners Exceeded Personal Net Worth Limits

   We identified several DBE owners who exceeded the personal net worth limit
   of $750,000 prescribed in the DOT DBE regulations at 49 CFR Part 26. For
   instance, one DBE owner, certified by the Levee District, was a multi-
   millionaire and one of the largest contractors in the Southeastern U.S. This
   DBE owner has since been decertified.

• Businesses Controlled by Non-Minorities

   We identified multiple DBE businesses that were controlled by individuals
   ineligible for DBE status. In one instance, we interviewed a DBE owner
   (qualified based on her gender) who admitted she knew little about the
   operation of her business, which was being run by her son, who was not
   eligible for DBE status.     This individual was decertified during our
   investigation.

• Illegal DBE Fronts

   Our investigation disclosed three suspected DBE fronts. In one instance, a
   DBE owner, when asked generally whether he was aware of any “fronts,”
   admitted to us that a non-DBE firm had paid him $1,000 to allow the non-DBE
   to perform contract work and falsely represent that the work had been done, as
   required, by his DBE firm. After making this admission, the DBE owner
   refused to cooperate in providing further information. This case, which we are

Report No. CC-2001-269
                                                                                 6

   continuing to investigate, highlights the critical importance of oversight in
   preventing and detecting such illegal arrangements.

• Annual Affidavits not Submitted; Required for Continued Participation

   The agencies did not enforce the DOT DBE regulations requiring DBE owners
   to submit annual affidavits certifying there have been no changes in
   circumstances affecting the DBE’s ability to meet program qualification
   criteria, to include personal net worth. The affidavits are required for the
   purpose of determining continued program eligibility. In the case of the Levee
   District, over half of the certification files we reviewed (randomly sampled)
   did not contain the required affidavits. Similarly, we found 30 percent of
   Airport and 25 percent of Transit Authority certification files reviewed lacked
   affidavits. The regulations provide for decertification of persons failing to
   submit the required affidavits.

   Moreover, we found that two of the three agencies had no system in place for
   identifying and responding to persons delinquent in filing, and that the third
   agency’s system was inadequate. At our recommendation, the agencies
   instituted an automated tracking process that includes generating notification
   letters to participating DBE owners 30 days in advance of their affidavit filing
   deadline.

• Mandatory Site Visits Not Conducted or Inadequate

   We found that the DBE program managers at the Transit Authority and Levee
   District did not conduct site visits (required under the DOT DBE regulations)
   with 50 percent and 30 percent, respectively, of their certified DBEs. We
   further found that site visits which were conducted during the certification
   process were not thorough enough to detect eligibility violations or false
   statements and DBE fraud.

• Political Patronage

   We found a widespread perception that political patronage was prevalent in the
   DBE programs in New Orleans during the 1999-2002 period we examined.
   More than 60 percent of the DBEs we interviewed expressed their belief that
   political patronage affected the awarding of DBE contracts. One DBE owner
   even told us he received a contract after yielding to what he perceived was
   pressure from local campaign officials to make monetary contributions to, and
   work on, a local candidate’s campaign; the DBE owner said the campaign
   officials had implied that the way to obtain DBE contracts was through

Report No. CC-2001-269
                                                                                  7

   supporting this candidate. We have corroborated certain details of this DBE
   owner’s admission and are continuing to investigate the facts and
   circumstances.

   Some DBE business owners expressed frustration over what they characterized
   as constant solicitation to contribute to local political campaigns. They advised
   that they made political contributions they could not afford because they were
   afraid they would be labeled as “not on the team” if they failed to contribute.

• Questioned Spending on Airport DBE Consultant

   The Airport expended more than 80 percent of its DBE program administration
   budget, or $640,000 annually, for a private DBE consultant. This consultant
   billed the Airport professional rates ranging from $65 to $125 per hour for
   many tasks that could readily have been accomplished by non-professionals at
   lower cost. As part of our investigation, we raised questions about this
   consultant contract, and, subsequently, the Airport selected a new DBE
   consultant, to be paid $250,000 per year, whose primary duties will entail
   reporting DBE participation to the Airport Board and the FAA. The Airport
   has utilized this cost savings to increase staffing in its DBE Compliance Office
   by four additional personnel.

• Transit Authority Procurement Procedures Circumvented

   Standard procurement procedures were not followed in the awarding of four
   DBE contracts by the Transit Authority. Procurement procedures and the
   recommendations of evaluation teams were ignored to facilitate the awarding
   of contracts to two DBE owners who were political contributors. We are
   continuing to investigate these circumstances.

• Reported DBE Ownership by Spouse of Multi-millionaire

   The Times-Picayune series reported that the wife of a multi-millionaire
   celebrity attorney owned an Airport concession DBE. We found that while she
   had been an Airport concession DBE owner in the late 1990s, and could still
   qualify given the lack of a personal net worth limit under the current DOT
   DBE regulations for airport concessions, she has not been operating this
   concession under the rubric of a DBE. For this concession, she has functioned
   as a non-DBE joint venture partner with a major retail contractor.

   This is not the first time we have reviewed assertions that millionaires have
   owned DBEs. As referenced in further detail below, we recently reported the

Report No. CC-2001-269
                                                                                   8

   results of our investigation into allegations about airport concession DBEs
   involving the Metropolitan Washington Airports Authority (MWAA). In that
   case, a similar assertion had been raised about the reported affluence of a DBE
   owner.

   In light of the absence of a personal net worth limit, situations such as this and
   the MWAA example foster perceptions that very wealthy individuals can take
   advantage of the DBE program, in contradiction to its intended purpose of
   aiding those who are both socially and economically disadvantaged.
   Accordingly, as addressed below, our report in the MWAA case included a
   recommendation that the Department prescribe a personal net worth limit for
   owners of airport concession DBEs.

• Remedial Actions Taken by the Agencies

   As part of our investigation, we briefed the Airport, Transit Authority, and
   Levee District on our findings and discussed best practices and
   recommendations for improving the management and oversight of their DBE
   programs.     These three agencies have already effected a number of
   improvements. Each agency has instituted policy and procedural changes, to
   include more thorough site visits and tracking recertification and annual
   reporting requirements for program participants.

   Following the publication of the March 2001 Times-Picayune series, the DBE
   program managers at the Airport, Transit Authority, and Levee District began a
   comprehensive program to review their DBE certification files and personal
   net worth information previously submitted by program participants. As a
   result of their reviews, many DBE owners were found to have exceeded the
   $750,000 personal net worth limit and were subsequently decertified.

   We are recommending that the Federal Aviation Administration (FAA) and
   Federal Transit Administration (FTA) conduct appropriate follow-up to ensure
   that these local agency improvements are sustained, and that the programs
   operate in full conformance with all applicable DBE statutes and regulations.

• Federal Oversight Requires Strengthening, Particularly FAA’s

   We are concerned about the current level of DOT oversight of local DBE
   programs, particularly that provided by the FAA. Prior to our review, FAA
   and FTA were requested to investigate the New Orleans DBE programs
   following the Times-Picayune series. In response, FAA’s regional office
   performed an internal review and issued a three-page report, while, in

Report No. CC-2001-269
                                                                                                 9

    comparison, FTA contracted a private auditing firm, which produced a 24-page
    report. FTA’s review included interviews with DBE owners and prime
    contractors, as well as detailed review of certification files.

    FAA’s review, which we concluded was cursory in nature, did not include such
    substantive activities as site visits, interviews with DBE and prime contractors,
    comprehensive review of certification files, and work-site surveillance. We
    incorporated each of these elements in the methodology for our investigation
    and believe such activities represent the kind of attention needed for FAA to
    fulfill its oversight responsibilities in a robust, effective manner. We spoke
    with current and former FAA DBE program officials, who related that,
    historically, FAA’s DBE oversight nationwide has been limited, which they
    attributed to lack of staffing.

    Based on our observations in this and other cases, DOT’s Operating
    Administrations, FAA in particular, need to strengthen the effectiveness of
    their stewardship of the DBE program beyond the status quo, which largely
    consists of limited, historical documentary reviews conducted periodically
    within local agency DBE program offices. Specifically, we are recommending
    that FAA and FTA oversight include aspects of the methodology we utilized
    for this investigation, e.g., site visits, DBE and prime contractor interviews,
    detailed certification file reviews, and work-site surveillance. We are also
    recommending that FAA and FTA perform their own up-front examination of
    DBE certification application packages (i.e., those pending approval by local
    agencies).

    Even if applied on a selective basis, such an approach—considerably more
    hands-on in nature—would enable FAA and FTA not only to better assess the
    compliance actions of local agency DBE program managers, but also to
    directly gauge the extent of regulatory compliance by participating DBEs and
    applicants for certification. This type of model would also facilitate the
    identification of best practices program-wide.

• DOT Regulations and Current Rulemaking for Airport Concession DBEs

    The current DOT DBE regulations contained in 49 CFR Part 26 (applicable to
    all DOT-funded programs except airport concessions) were promulgated in
    March 19999. These new regulations instituted significant changes in
    eligibility requirements for DOT DBE program participants, including the
    establishment of a $750,000 personal net worth limit, an increase in the gross
9
 The 49 CFR Part 26 regulations were revised pursuant to the landmark Supreme Court case of Adarand
Constructors v. Federico Peña, Secretary of Transportation, 515 U.S. 200 (1995)

Report No. CC-2001-269
                                                                                                       10

       revenue limitation for DBE firms to $17.4 million, and the requirement for
       DBE owners to submit an annual affidavit certifying that there have been no
       changes in circumstances affecting the DBE’s ability to meet program
       qualification criteria, to include personal net worth.

       Regarding personal net worth considerations and the requirement for eligibility
       affidavits, Department commentary10 preceding its March 1999 issuance of the
       revision to 49 CFR Part 26 included the following:

           “As has been the case since the beginning of the DBE program, the
           presumptions of social and economic disadvantage are rebuttable. . .
           [Certifying agencies’] comments unanimously said that [agencies]
           should collect financial information, such as statements of personal net
           worth (PNW) and income tax returns, in order to determine whether the
           presumption of economic disadvantage really applies to individual
           applicants. Particularly in the context of a narrowly tailored program, in
           which it is important to ensure that benefits are focused on genuinely
           disadvantaged people (not just anyone who is a member of a designated
           group), we believe that these comments have merit. . . [I]t is appropriate
           to give [certifying agencies] this [PNW affidavit] tool to make sure that
           non-disadvantaged persons do not participate.”

       In 2000, the Department initiated the rulemaking process to revise the DOT
       DBE regulations applicable to airport concessions (49 CFR Part 23). In the
       rulemaking, which remains ongoing at present, the Department proposed to
       institute a personal net worth limit for airport concession DBEs. The
       Department is currently considering comments on what the amount of the cap
       should be.

       We recently completed an investigation concerning airport concession DBEs,
       involving the Metropolitan Washington Airports Authority (MWAA)11, in
       which we made observations related to ones reported in this investigation. In
       short, based on our investigative findings in that case, we made several
       recommendations to the Department, which are summarized as follows:

       – The DBE regulations covering airport concessions need to prescribe a
         personal net worth limit for the owner of a DBE. While we are not
         proposing any specific cap, a limitation on personal net worth would serve

10
     Federal Register, Vol. 64, No. 21, February 2, 1999, Page 511.
11
   On September 5, 2003, we issued our report to Representatives Joseph Pitts and Peter Deutsch, as well as
to the Secretary, Federal Aviation Administrator, and MWAA’s Board of Directors.

Report No. CC-2001-269
                                                                              11

      as an appropriate threshold determinant in establishing whether an
      individual is economically disadvantaged.

   – The regulations should set forth clear, objective, and tangible criteria for
     rebutting the presumption of economic disadvantage.

   – Consideration should be given to establishing terms for DBE firms, and their
     owners, to ultimately graduate from DBE eligibility.

   While we believe personal net worth limits promote fairness of opportunity for
   those persons who, per statute, are considered both “socially and economically
   disadvantaged,” and thus have recommended that the Department set a cap for
   the owners of airport concession DBEs, it is not our role to assess the
   applicability of such a requirement for non-DOT funded state and local DBE
   programs. However, as long as incongruity regarding DBE eligibility exists
   between (a) the DOT DBE regulations at 49 CFR Part 23 and Part 26, and
   (b) DOT and state/local standards, the potential for perceptions that certain
   programs are disparate in treatment, or otherwise unfair, will continue.

Details

Additional details from our investigation of the DOT-funded DBE programs at the
Airport, Transit Authority and the Levee District are presented as follows:

DBE Owners Exceeded $750,000 Personal Net Worth Limit

We identified eight DBE owners certified by the Airport whose certification files
indicated they exceeded the $750,000 personal net worth limit prescribed in the
DOT DBE regulations. The contracts awarded to these eight DBEs, ranging from
$10,000 to $1.4 million, were for services such as security, transportation,
engineering, and construction.

The Airport’s DBE program managers had not identified these individuals as
being ineligible and thus had not taken decertification action. Two of these same
individuals had also been certified by the Transit Authority and two additional
business owners exceeding the personal net worth limit had been certified by the
Levee District.

Businesses Controlled by Non-minorities

Three DBE businesses certified by the Airport and Transit Authority were found
to be controlled by individuals who were not disadvantaged minorities as defined

Report No. CC-2001-269
                                                                               12

in 49 CFR 26. The regulations allow a non-minority to own up to 49 percent of
the DBE business, but the minority owner must control the business and make the
key business decisions.

• In the first instance, the DBE business owner was an elderly woman who
  owned a construction company. When we interviewed her, we learned she had
  limited knowledge of the business, no construction experience or licenses, and
  did not know what equipment her company owned or where their current
  projects were located. We learned her son actually controlled the business and
  made all the business decisions. We concluded that the owner was an owner in
  name only and should not have been certified as a DBE. This individual has
  since been decertified.

• The owner of an Airport DBE told us when interviewed that he only worked at
  his DBE business part-time because he had another job. This DBE owner told
  us that his non-minority business partner actually ran the business and made all
  key decisions. He further advised us that his firm was created after his non-
  minority partner approached him offering to form a company, for the purpose
  of obtaining DBE contracts, based on his status as a minority. We have
  requested that the Airport review the legitimacy of this DBE operation.

• Finally, we identified a DBE electrical company in which the non-minority
  business partner owned the majority of stock in the company and completed
  most of the projects. The two DBE partners had a minor role in the company.
  One of the DBE partners was out of the country working on projects for
  another company for most of the year. Regulations require full-time
  participation and control of the business by the DBE owner. This DBE has
  been decertified.

Illegal DBE Fronts

Three suspected DBE fronts were identified during our investigation. The term
“DBE front” has generally been applied to businesses that obtain DBE contracts
but do not complete the contracted work to fulfill stated goals for DBE
participation. Instead, under such illegal schemes, they are paid a small amount
for the use of their DBE status by a non-DBE contractor who actually completes
the work and receives the bulk of the payments. Typically, payments are funneled
through the DBE’s bank account to make it appear he has been paid for the work.

For example, we identified a DBE contractor who acted as a DBE front on a recent
elevator project. In one instance, a DBE owner, when asked generally whether he
was aware of any “fronts,” admitted to us that a non-DBE firm had paid him

Report No. CC-2001-269
                                                                                                        13

$1,000 to allow the non-DBE to perform contract work on an elevator project and
falsely represent that the work had been done, as required, by his DBE firm. The
DBE allowed the non-DBE to use his company name and DBE status to obtain the
contract. After the contract was awarded to the DBE, the owner of the DBE
allowed the non-DBE to complete all the work and receive full payment for the
contract because, as he explained, he was “too busy” with other work and would
not have been able to complete this particular contract. Nonetheless, he received
$1,000 but performed none of the required work. After making this admission, the
DBE owner refused to cooperate in providing further information.

Through record reviews and interviews with contractors, we identified two other
businesses suspected of operating as DBE fronts. We are continuing our
investigation of these three suspected DBE fronts.

Annual Affidavits not Submitted; Required for Continued Participation

The agencies did not enforce the DOT DBE regulations requiring DBE owners to
submit annual affidavits certifying there have been no changes in circumstances
affecting the DBE’s ability to meet program qualification criteria, to include
personal net worth. The affidavits are required for the purpose of determining
continued program eligibility. In the case of the Levee District, over half of the
certification files we reviewed (randomly sampled) did not contain the required
affidavits. Similarly, we found 30 percent of Airport and 25 percent of Transit
Authority certification files reviewed lacked affidavits. The regulations provide
for decertification of persons failing to submit the required affidavits.

Moreover, we found that two of the three agencies had no system in place for
identifying and responding to persons delinquent in filing, and that the third
agency’s system was inadequate. At our recommendation, the agencies instituted
an automated tracking process that includes generating notification letters to
participating DBE owners 30 days in advance of their affidavit filing deadline.

Based on our review, a large number of DBEs did not submit the required
affidavits and thus were subject to decertification. In our view, the DBE program
should function such that, as a DBE grows and becomes successful, the personal
net worth of its owner increases and the owner should graduate from the program,
no longer in need of assistance afforded by the DBE program12. The affidavit
serves as the DBE owner’s sworn statement of continued eligibility. If a DBE
owner does not submit the annual affidavit of no change in personal net worth in a

12
  This view is supported by 49 CFR Part 26.1(f), which states that an objective of the program is to “assist
the development of firms that can compete successfully in the marketplace outside the DBE program.”

Report No. CC-2001-269
                                                                                  14

timely manner, the regulations provide that decertification proceedings can be
initiated by the program manager.

Site Visits

Site visits conducted by the DBE compliance staffs at all three agencies during the
certification process were, in many instances, not conducted in accordance with
the regulations. The DBE program managers at the Transit Authority and Levee
District did not conduct site visits with 50 percent and 30 percent, respectively, of
their certified DBEs. While record reviews indicate that Airport DBE compliance
personnel conducted site visits with all of the certified DBEs, in some cases the
visits were not thorough. For example, information such as financial statements
and business licenses, which should have been reviewed during the site visit, was
missing from the certification files.

The site visit is one of the most important duties of DBE program managers
because it provides important information that cannot be gained through the
review of documents provided in the DBE’s application package. The site visit
provides the reviewer the opportunity to observe the DBE’s business operations,
interview associates and employees, verify equipment and assets, and ascertain if
the applicant is the primary decision maker and manager of the business. The
DBE compliance official should be able to identify businesses with the potential to
act as a DBE front company or commit DBE fraud through information obtained
during the site visit.

When we made site visits in connection with our review, we found indicators of
fraud; specifically, minority contractors controlled by prime contractors and
minority contractors who were not performing work. An illustration of the
importance of site visits is found in the example, reported in the Times-Picayune,
of the wife of the owner of Boe’s Iron Works, Inc., who had applied for DBE
certification with the agencies. The individual’s applications were processed, but
a site visit by the DBE compliance officer at the Airport determined that she
would not be actively managing and controlling the business, thus the Airport,
along with the other agencies, denied her requested DBE certification.

Political Patronage

The Times-Picayune series alleged some DBE contracts were awarded based on
political patronage. We found a widespread perception that political patronage
was prevalent in the DBE programs in New Orleans during the 1999-2002 period
we examined.


Report No. CC-2001-269
                                                                                  15

During our interviews with DBE owners, we asked if political patronage played
any role in the awarding of DBE contracts. More than 60 percent of those
interviewed expressed the belief that it was necessary to make political
contributions to be a successful DBE. One DBE owner even told us he received a
contract after yielding to what he perceived was pressure from local campaign
officials to make monetary contributions to, and work on, a local candidate’s
campaign; the DBE owner said the campaign officials had implied that the way to
obtain DBE contracts was through supporting this candidate. These specific
allegations remain under investigation. We have corroborated certain details of
this DBE owner’s admission and are continuing to investigate the facts and
circumstances.

Some DBE business owners expressed frustration over what they characterized as
constant solicitation to contribute to local political campaigns. They advised that
they made political contributions they could not afford because they were afraid
they would be labeled as “not on the team” if they failed to contribute.

Airport DBE Consultant

During the past few years, the Airport DBE program had utilized 80 percent of its
annual budget for an external DBE consultant. The Airport’s DBE program
administration budgets for 2000, 2001, and 2002 averaged $800,000 annually.
Approximately $640,000 was paid annually to this DBE consultant.

Our review of the consultant’s contract with the Airport disclosed it was paid to
provide such services as reviewing DBE certification applications; reviewing and
maintaining DBE files; site visits to DBE applicants; assisting in the preparation of
DBE reports; assisting the Airport’s Legal Office in formal DBE grievance and
appeal hearings; tracking and reporting of all DBE participation at the Airport;
holding job fairs; and conducting mentoring programs for DBEs and minority
youth programs.

We found that this consultant charged the Airport professional services rates for
many tasks that could have been accomplished by personnel paid at non-
professionals rates. Our review of billing records revealed that the consultant
billed the Airport more than $500,000 in 2002 for over 6000 hours at rates ranging
between $65 and $125 per hour. The consultant also added a 10 percent charge
for general and administrative expenses and charged the Airport for all additional
expenses incurred, such as mileage, postage, parking, travel, etc. The consultant
received more than $1.9 million from the Airport during the past three-year period.




Report No. CC-2001-269
                                                                                  16

Additional analysis of 2002 billing records and payroll data, as well as interviews
with the consultant’s employees, revealed that the consultant billed the Airport at a
rate of $85 per hour for an employee who was actually paid less than $25 per hour.
The consultant also billed at the rate of $65 per hour for an employee who was
paid $25 per hour, and at the rate of $45 per hour for two employees who were
paid less than $15 an hour.

When compared with other similar size DBE programs in the State of Louisiana,
the Airport, with a staff of three at the time, spent a considerably large proportion
of its budget on the DBE consultant. For example, the Louisiana Department of
Transportation and Development, which has a comparably-sized client base as that
of the Airport, has a staff of 11, carries out its functions without utilizing
consultants, and operates on a total budget of less than $600,000 per year.

After we raised questions about this consultant contract during our investigation,
the Airport selected a new DBE consultant, to be paid $250,000 per year, whose
primary duties will entail reporting DBE participation to the Airport Board and the
FAA. The Airport has utilized this cost savings to increase staffing in its DBE
Compliance Office by four additional personnel.

DBE Contract Improprieties at the Transit Authority

We found that standard operating procedures were not followed by the Transit
Authority in the process of awarding and administering four contracts to DBE
businesses. We are continuing to investigate the circumstances surrounding the
award of these contracts. The allegations involve favoritism in awarding contracts
and circumventing contract evaluation team recommendations; circumventing
standard procurement procedures; and ignoring documented contract violations
committed by a contractor who was a major political party contributor.

Recommendations

As noted above, based on interim advisements we have received, the Airport,
Transit Authority, and Levee District have taken steps to improve their operating
procedures, consulting contracts, and certification procedures, and we understand
that the Airport and Transit Authority have already added additional personnel to
improve their operational efficiency and oversight.

As part of our investigation, we examined a statistically significant sample of 118
of the agencies’ DBE certification files. Despite this coverage, based on our
findings, we believe examination of all certification files would be prudent.
Accordingly, we recommend that the agencies conduct a comprehensive audit of

Report No. CC-2001-269
                                                                                   17

all of their DBE certification files. Particular attention should be paid to the
following:

(a) Compliance with the annual regulatory requirement for DBE owners to submit
    an affidavit attesting to no change in personal net worth. We found that a
    large percentage of the certification files at all three agencies were missing
    required annual affidavits. Business owners who have not submitted an
    affidavit within the past year should be notified, given a reasonable time to
    respond, and then decertified if the affidavit is not submitted in a timely
    manner.

(b) DBE program managers should identify each DBE certified without a site
    visit having been performed, and immediately conduct a site visit. The site
    visit is an important tool for managing DBE programs and preventing DBE
    fraud. It is imperative that site visits be conducted at all DBE applicant firms
    before certification is granted, and then periodically thereafter to help guard
    against DBE “fronts.”

We are recommending that FAA and FTA, pursuant to their DBE program
oversight responsibilities, conduct appropriate follow-up to ensure that these local
agency improvements are sustained, and that the programs operate in full
conformance with all applicable DBE statutes and regulations. Moreover, as
noted earlier in this report, both FAA and FTA need to strengthen the
effectiveness of their stewardship of the DBE program, beyond their current
protocols, which largely consist of limited documentary reviews.

Specifically, we are recommending that FAA and FTA oversight include key
aspects of the methodology we utilized for this investigation, e.g., site visits, DBE
and prime contractor interviews, detailed certification file reviews, and work-site
surveillance. We are also recommending that FAA and FTA perform their own
up-front examination of DBE certification application packages (i.e., those
pending approval by local agencies).

Even if applied on a selective basis, such an approach—considerably more hands-
on in nature—would enable FAA and FTA not only to better assess the
compliance actions of local agency DBE program managers, but also to directly
gauge the extent of regulatory compliance by participating DBEs and applicants
for certification. This type of model would also facilitate the identification of best
practices program-wide.

We are transmitting our recommendations under separate cover to the Secretary,
Federal Aviation Administrator, and Federal Transit Administrator, and we will be

Report No. CC-2001-269
                                                                                   18

providing the local agencies with our recommendations for enhancing the
effectiveness of their programs. In addition, we have addressed an identical letter
to the Ranking Minority Member of the Subcommittee and the Senate
Transportation Appropriations Subcommittee.

If I can answer any questions or be of further assistance in this or any other matter,
please feel free to contact me at 202-366-1959, or my Deputy, Todd J. Zinser, at
202-366-6767.

Sincerely,



Kenneth M. Mead
Inspector General

Enclosures (2)
Appendices




Report No. CC-2001-269
                                        APPENDIX A


                General Background on the DOT DBE Program

The U.S. Department of Transportation established a Disadvantaged Business
Enterprise (DBE) Program for minorities in the early 1980s. The program was
designed to remedy the effects of past discrimination against small businesses
owned by socially and economically disadvantaged individuals and to foster equal
opportunity in transportation contracting.

DOT authorizing statutes contain provisions for DOT-funded highway and transit
programs requiring that a minimum of 10 percent of DOT funding be expended on
DBE businesses. The original DBE program did not include women in its
definition of socially or economically disadvantaged individuals. Women were
first included among disadvantaged groups in the Surface Transportation and
Uniform Relocation Assistance Act of 19871.

The DBE regulations applicable to DOT-funded programs such as highway,
transit, and airport construction projects are at Title 49 Code of Federal
Regulations (CFR), Part 26. 49 CFR Part 26 prescribes a $750,000 personal net
worth limit for the owner of a DBE (excluding equity in his/her primary residence
and ownership in the DBE. Additionally, Part 26 caps the annual gross revenue of
a DBE firm at $17.4 million per year (averaged over the preceding three years).

In contrast to the Part 26 regulations, the regulations covering airport concession
DBEs (49 CFR Part 23) impose no personal net worth limit for the owner of a
DBE.      Although the regulations provide that presumption of economic
disadvantage is rebuttable, the absence of a personal net worth limit for airport
concession DBEs makes it difficult, if not impossible, for the presumption to be
rebutted. As such, it is possible that irrespective of personal wealth, an individual
otherwise qualified could attain certification as a DBE for an airport concession
contract if they are a member of a designated group based on social disadvantage.
In addition, Part 23 allows airport concession DBE firms to remain qualified with
up to $30 million in gross revenues (averaged over the preceding three years).

DOT administers its DBE program through its Operating Administrations, such as
the Federal Highway Administration (FHWA), the Federal Aviation

1
  This Act contained provisions to include women in the previously designated groups of disadvantaged
minorities. The Transportation Equity Act for the 21st Century (1998) continued to identify women as
disadvantaged individuals for DOT DBE programs.

Report No. CC-2001-269
                                                                               2


Administration (FAA), and the Federal Transit Administration (FTA). DOT
Operating Administrations develop program policies, instructions, and procedures;
reviews and approves states’ and transit authorities’ DBE program plans; provides
technical assistance and training; and carry out oversight of local agencies.

New Orleans local agencies such as the Airport, Transit Authority and the Levee
District must maintain DOT-approved DBE programs in order to receive financial
assistance from the Federal Government on certain public works, transportation
and airport improvements projects. These three local agencies established
individual DBE programs, but are all bound by the DOT regulations for the
certification of DBE contractors, vendors, and suppliers. Each agency maintains a
list of certified DBEs by category of expertise such as paving contractors,
engineers, and management consultants.          Each agency sets annual DBE
participation goals in accordance with goal-setting procedures prescribed in
49 CFR Part 26.

                                       #




Report No. CC-2001-269                                               APPENDIX A
                                    APPENDIX B


                         Times-Picayune Newspaper Articles

In March 2001, the Times-Picayune published a series of articles on DBE
programs in the City of New Orleans. The articles featured personal interviews
with individual DBE owners who alleged numerous problems and abuses in the
programs. Many of the DBE owners mentioned in the articles were not, at the
time, certified under DOT DBE programs. Many of the allegations of program
abuse or DBE fraud noted in the newspaper articles involved DBE programs
operated by the City of New Orleans or other local agencies.

We investigated the specific allegations of abuse involving seven businesses cited
by the Times-Picayune as having received DBE contracts under DOT DBE
programs. In most cases, the DBE owners and program officials were
interviewed. However, some DBE owners refused to be interviewed. Of the
1,224 DBEs certified in the City of New Orleans, approximately 500 were
certified under U.S. DOT DBE programs.

Our general findings concerning the anecdotes in the Times-Picayune series are
presented as follows:

Payless Car Rental
One Times-Picayune article cited problems the Airport has experienced in locating
DBEs to participate as owners of car rental agencies at the airport. The article
criticized the Airport’s selection, for a car rental concession, of a DBE owner
having a poor history of financial dealings.

We reviewed the circumstances of the Airport’s selection of this concessionaire
and found that in 1997, the Airport certified this DBE owner for the purpose of
operating a PAYLESS car rental franchise. The Airport agreed to give him a
choice location for a rental counter within the airport, lowered his concession fee
to the airport from the customary 10 percent of gross revenues to 8 percent, and
assisted him in negotiating a low franchise fee from PAYLESS. The DBE was not
successful and declared bankruptcy. The Airport advised us that it was unaware
that this businessman had previously been involved in a failed credit union and
was the target of several lawsuits. Airport officials conceded that they may have
exercised poor judgment in attempting to assist a DBE in a concession area
controlled by large national firms. The Airport noted the difficulties small


Report No. CC-2001-269
                                                                                2


businesses have in competing with large national companies such as HERTZ,
AVIS, and BUDGET.

We did not investigate the circumstances surrounding the owner’s previous
involvement in a failed credit union and unpaid loans, as this was beyond the
scope of our investigation. We did interview the owner concerning his political
contributions. He told us he had made a personal contribution of $10,000 to a
mayoral candidate. He denied that his contribution had any influence in the extent
of assistance he had received from Airport officials in operating his rental car
business.

Edgar Ford
The newspaper articles questioned the eligibility of a large Ford automobile
dealership, EDGAR FORD (EDGAR), to participate in the DBE program at the
Airport. HERTZ CAR RENTAL, INC. (HERTZ) made more than $90 million in
fleet purchases from EDGAR between 1995 and 2001. HERTZ counted the entire
purchase price of these vehicles toward DBE participation goals since they were
purchasing them from a DBE certified by the Airport.

Through interviews with Airport officials and the owner of the auto dealership, we
determined these vehicles were not actually being purchased from EDGAR.
HERTZ purchased the vehicles directly from FORD MOTOR CO. Originally,
EDGAR was paid between $40 and $100 per vehicle to take physical delivery of
the vehicles and assist in recording the titles. (EDGAR was a certified DBE, but
because the business was classified as an Airport concessionaire, there were no
limits on the owner’s personal net worth.) This arrangement with HERTZ lasted
for approximately two years, after which HERTZ began having the cars shipped
from FORD directly to their locations and EDGAR was no longer involved in
preparing any paperwork. Notwithstanding this, HERTZ continued to pay
EDGAR between $5 and $25 per vehicle from HERTZ, in order for HERTZ to
continue applying the purchases toward DBE participation goals, even though
EDGAR had no involvement in the transactions.

HERTZ has not counted the purchase of these fleet vehicles toward DBE
participation goals in New Orleans since the end of 2001. In September 2002, the
Airport decertified EDGAR as a DBE after it failed to provide information
necessary for recertification.




Report No. CC-2001-269                                                APPENDIX B
                                                                                 3


Wealthy Airport Concessionaire
The news articles cited that the wife of a multi-millionaire celebrity attorney was
reportedly a current DBE at the Airport. We found that while she had been an
Airport concession DBE owner in the late 1990s, and could still qualify under the
current DOT DBE regulations for airport concessionaires, she was actually a non-
DBE joint venture partner with a major retail contractor. The articles correctly
noted that there are no personal net worth limitations on airport concession DBEs,
and individuals with unlimited assets may be able to meet DBE eligibility
requirements.

In 1997, the Airport solicited contract proposals for new major retail and beverage
concession managers. The Airport required 35 percent participation in these
contracts by minority-owned firms. The minority individual mentioned above
submitted a proposal and was selected as the minority joint venture partner by the
major retail contractor, but was not operating as a DBE.

A.M.E. Janitorial Service
The newspaper articles reported that the owner of a janitorial company certified as
a DBE by the City of New Orleans, A.M.E., Inc., (AME), had obtained several
lucrative contracts at the Airport through political influence. A review of the
DBE’s business records and interviews with the DBE owner and Airport DBE
compliance officials revealed he was never certified as a DBE by the Airport. His
business was considered a services company, not a concessionaire, and would
have had to meet standard certification regulations under 49 CFR Part 26 to
qualify as a DBE. The company’s gross revenues exceeded $20 million annually
and, therefore, the owner could not meet the $17.4 million gross revenue
limitation. AME operated at the Airport as a regular contractor, not as a DBE.
However, AME was certified by the City of New Orleans as a DBE because its
DBE program (non-DOT funded) has no limitations on personal net worth or gross
revenues.

The owner told us he made political contributions to several local politicians, but
denied these contributions had any affect on the awarding of the Airport contracts.
He advised he had obtained his airport contracts through competitive bidding. We
verified through the Airport Contracting Office that AME’s contracts were
competitively awarded1.

Allegations were made that the owner of AME also operated another business at
the Airport identified as ETI. The owner stated he made a loan to a former

1
    Not all Airport concession contracts are competitively awarded.

Report No. CC-2001-269                                                 APPENDIX B
                                                                                 4


employee to assist him in setting up a new personnel business, Exceptional
Temporaries, Inc. (ETI) which was a DBE. We verified that ETI had been
certified by the Airport as a DBE. The owner of AME denied he owned any part
of this business; he merely made a personal loan to the owner of ETI as a friend
and the loan has since been repaid. Our review of ETI’s certification records
indicated no ownership by the owner of AME.

The newspaper articles also reported that AME had failed to provide assistance to
other DBEs in accordance with a clause in its Airport contract to make a good-
faith effort to place 35 percent of its work with DBE firms. We did not investigate
these allegations due to the fact the contracts in question extended from the early
1990s through 1998, which was beyond the scope of our investigation.

Carlo Ditta, Inc.
The Times-Picayune questioned the DBE status of a large cement contractor,
CARLO DITTA, INC. (CDI). Our review of records and interviews with Airport
DBE personnel and the owner and managers of the company revealed the business
was no longer a certified DBE. The business had originally been certified as a
DBE by the Airport and Transit Authority in 1993. In March 1999, changes to the
DOT regulations at 49 CFR Part 26 instituted a personal net worth limitation for
DBE owners and an annual gross revenue limitation for DBE firms (presently
$17.4 million, averaged over the three preceding years). Under these new
regulations, CDI no longer qualified because its annual gross revenues exceeded
the prescribed limit. However, DOT guidance for implementing the new
regulatory standards afforded agencies some discretion for when to apply the
provisions. As such, the Airport and Transit Authority DBE Compliance Offices
allowed CDI to remain a program participant until September 2001, when it was
decertified.

Boe’s Iron Works Inc.
The owner of Boe’s Iron Works Inc. (BIW), described in the Times-Picayune as “a
white man with a net worth of more than $4.2 million”, was alleged to have
received DBE contracts. It was determined that BIW has never been certified by
the Airport, the Transit Authority or the Levee District. The company applied for
DBE certification at these agencies under the Woman-owned Disadvantaged
Business Enterprise (WBE) program with the wife of the owner as the proposed
WBE. The applications were processed, but site visits performed by the Airport
Authority determined the wife would not be actively managing and controlling the
business, thus the DBE certification was denied. BIW did obtain DBE
certification by the Orleans Parish School Board, which is not part of DOT’s DBE
program, and received a $1 million contract. While our overall finding about the
Report No. CC-2001-269                                                 APPENDIX B
                                                                                 5


agencies’ DBE programs is that site visits were inadequate, this specific example
serves to underscore the utility and value of thorough site visits.

Bayou State Security, Inc.
The Times-Picayune reported that the owner of one of the largest security
companies in the state, Bayou State Security, Inc., was a DBE with annual revenue
of $5 million. We determined Bayou had several large security contracts with the
Airport and various local agencies. We interviewed the owner who advised he
met all eligibility requirements for the DOT DBE program. We reviewed the
firm’s business records and the owners personal net worth records contained in his
certification file at the Airport DBE Compliance Office. In reviewing certification
file documentation, we determined that the owner’s personal net worth was below
$750,000 (excluding his personal residence and his investment in the company.)
Even though his firm had annual gross revenues of $5 million, this was well below
the amount allowed by the DOT DBE regulations—a three-year average of $17.4
million or less per year. We determined the owner met all DBE eligibility
requirements and was properly certified.

                                        #




Report No. CC-2001-269                                                 APPENDIX B
